USAID
OFFICE OF INSPECTOR GENERAL
               Audit of USAID/Romania’s
                 Performance Monitoring
                           for Indicators


               Audit Report No. B-186-01-003-P

                             February 26, 2001
                           Budapest, Hungary




                                   U.S. Agency for
                        International Development
                  U.S. AGENCY FOR
                   INTERNATIONAL
                    DEVELOPMENT

                  RIG/Budapest


                  February 26, 2001


                  MEMORANDUM

                  FOR:              USAID/Romania Director, Denny F. Robertson

                  FROM:             Dir. of Audit Operations, RIG/Budapest, Nathan S. Lokos

                  SUBJECT:          Audit of USAID/Romania’s Performance Monitoring for
                                    Indicators (Report No. B-186-01-003-P)

                  This memorandum is our report on the subject audit. In finalizing the report,
                  we considered your comments on the draft report. Your comments on the
                  draft report are included in Appendix II.

                  This report contains six recommendations for your action. Based on the
                  information provided by the Mission, management decisions have been
                  reached on these recommendations. A determination of final action for these
                  recommendations will be made by the Office of Management Planning and
                  Innovation (M/MPI/MIC) when planned corrective actions are completed.

                  I appreciate the cooperation and courtesy extended to my staff during the
                  audit. I especially valued the excellent preparatory work your staff did to
                  facilitate the audit prior to the arrival of the audit team.




     Background   After the collapse of the Soviet Bloc in 1989-91, Romania was left with an
                  obsolete industrial base and a pattern of industrial capacity wholly unsuited
                  to its needs. In February 1997, Romania embarked on a comprehensive
                  macroeconomic stabilization and structural reform program, but reform
                  subsequently has been a “stop-and-go” process. Restructuring programs have
                  included liquidating large energy-intensive industries and major agricultural


Page 1 of 13                                                     Audit Report No. B-186-01-003-P
                      and financial sector reforms. Today, Romania is continuing its difficult
                      transition to a market-based economy.

                      The overall goals of USAID's assistance program in Romania are to support
                      economic freedom and growth, democratic attitudes and institutions, and
                      improvements in the quality of life for Romanians. Specifically, USAID's
                      assistance program helps to foster Romania's transition to a market-oriented
                      democracy through major activities in the areas of economic growth,
                      democracy-building and social sector restructuring. Between 1990 and 1999,
                      USAID committed $248 million to Romanian assistance programs in the
                      following areas: privatization, financial sector development, private sector
                      development, energy sector reform, improved environmental management
                      and protection, democratic governance, civil society development,
                      decentralized public administration and local government strengthening,
                      women's reproductive health and reform of the child welfare system.

                      In March 2000, USAID/Romania submitted its annual Results Review and
                      Resource Request (R4)—the most significant performance report of the
                      Mission—highlighting fiscal year 1999 program accomplishments and fiscal
                      year 2002 strategic directions. Underpinning the Mission’s annual R4
                      report is a USAID-prescribed performance monitoring system which
                      encompasses: (1) establishing performance indicators; (2) preparing
                      performance monitoring plans; (3) setting performance baselines; (4)
                      collecting performance data; and (5) assessing data quality.



   Audit Objectives   This audit is part of a worldwide series of audits that are being conducted by
                      USAID’s Office of Inspector General (OIG). USAID’s Office of Policy and
                      Program Coordination (PPC) requested these audits and, with the OIG,
                      jointly developed the audit objective and methodology. The Office of the
                      Regional Inspector General/Budapest performed this audit to review the
                      Mission’s performance monitoring system and, specifically, to answer the
                      following audit objective:

                      !      Did USAID/Romania monitor performance in accordance with
                             Automated Directives System E203.5.5 and other relevant guidance
                             as demonstrated by indicators appearing in its Results Review and
                             Resource Request report for fiscal year 2002?

                      Appendix I describes the audit's scope and methodology.




Page 2 of 13                                                          Audit Report No. B-186-01-003-P
     Audit Findings   Did USAID/Romania monitor performance in accordance with
                      Automated Directives System E203.5.5 and other relevant guidance as
                      demonstrated by indicators appearing in its Results Review and
                      Resource Request report for fiscal year 2002?

                      USAID/Romania generally monitored performance in accordance with
                      Automated Directives System (ADS) E203.5.5 and other relevant
                      guidance as demonstrated by indicators appearing in its R4 report for
                      fiscal year 2002. However, we determined that there were certain
                      exceptions in the four strategic objectives that we examined. These
                      exceptions concerned (1) performance monitoring plans that are too
                      general to allow for consistent results monitoring and reporting, (2) the
                      lack of formal data quality assessments, and (3) certain shortcomings in
                      R4 reporting.

                      In all, the Mission’s R4 report included 21 performance indicators for
                      on-going activities. In collaboration with the Mission’s staff, we decided to
                      focus our testing on five performance indicators that encompassed four of
                      the Mission’s eight strategic program areas. The four strategic program
                      areas reviewed had obligations totaling $40.2 million for FY 1999 and FY
                      2000 or 75.3 percent of the Mission’s portfolio. For these five indicators, the
                      Mission had recently prepared a detailed performance monitoring plan that
                      included indicator descriptions and units of measurement, data sources, data
                      collection schedules, data calculation methodologies, and data acquisition
                      and analysis responsibilities within the Mission. In addition, the Mission had
                      established baseline data for all indicators in order to measure progress
                      toward strategic objectives. And finally, the Mission issued its R4 report,
                      which generally reported data in accordance with USAID guidance.

                      However, we found certain areas in which the performance monitoring
                      system could be improved. Performance monitoring plans were—in some
                      cases—not as complete as specified by ADS guidance, data quality
                      assessments were generally not done, and R4 reporting standards were not
                      always met. These opportunities for improvement are discussed below and
                      summarized in Appendix III.

                      Performance Monitoring Plans Were too General
                      to Allow Consistent Results Monitoring and Reporting

                      For the performance monitoring plans prepared for each of the four
                      strategic objectives reviewed, we found that the plans were not as
                      complete as required by USAID guidance for three of the five indicators
                      examined. Specifically, the plans did not always meet USAID standards



Page 3 of 13                                                          Audit Report No. B-186-01-003-P
               requiring (1) precise definition of indicators, (2) identification of data
               sources, and (3) description of the data collection methodology.

               The principal causes for these shortcomings were that:

               •   until recently, most projects and activities were managed from
                   Washington;

               •   the Europe and Eurasia Bureau initially focused on input-output
                   reports rather than results reporting; and

               •   finally, USAID/Romania’s program staff were generally inexperienced
                   in the requirements for project design, implementation, management
                   and performance monitoring.

               Because of the Europe and Eurasia Bureau’s initial focus on inputs rather
               than results and the fact that most of USAID’s assistance program in
               Romania was managed from Washington, the Mission’s inexperienced
               program staff and financial resources were focused on developing and
               managing activities at the expense of monitoring performance of its
               portfolio. Without complete monitoring plans, the Mission did not have
               assurance that it was maintaining the controls that are essential to the
               operation of a credible and useful performance-based management system.
               These conditions also contributed to the Mission’s lack of clear procedures
               and methodology for assessing the quality of data sources discussed later
               in this report.

               ADS 203 states that performance monitoring plans shall be prepared for
               each operating unit’s strategic plan. Information included in a performance
               monitoring plan shall enable comparable performance data to be collected
               over time, even in the event of staff turnover, and shall clearly articulate
               expectations in terms of schedule and responsibility. Specifically,
               performance monitoring plans shall provide a detailed definition of the
               performance indicators that will be tracked; specify the source, method of
               collection and schedule of collection for all required data; and assign
               responsibility for collection to a specific office, team or individual. In
               summary, performance monitoring plans function as a critical tool for
               managing and documenting the data collection process—and for ensuring
               that data are collected from one reporting period to the next is comparable.

               USAID/Romania had a separate performance monitoring plan for all seven
               strategic objectives which had indicators. One strategic objective area
               focused on cross cutting programs and did not have any indicators associated
               with it. Our examination of four performance monitoring plans related to
               four separate strategic objectives determined that those plans did not always




Page 4 of 13                                                  Audit Report No. B-186-01-003-P
               meet USAID’s standards for indicator definition, data source identification
               and data collection methodology.

                       Indicator Definition

               ADS E203.5.5 (a) addresses performance indicators and requires that
               operating units define performance indicators for which quality data are
               available. Further guidance on these requirements is contained in a
               pamphlet—TIPS No. 7—issued by USAID’s Center for Development
               Information and Evaluation (CDIE).1 TIPS No. 7 addresses the preparation
               of a performance monitoring plan and states that the definitions of
               performance indicators “should be detailed enough to ensure that different
               people at different times, given the task of collecting data for a given
               indicator, would collect identical types of data.”

               We found that three indicators out of the five we reviewed did not meet that
               criterion. The Strategic Objective No. 1.3 indicator, “Value of loans (micro
               and small) and equity investment made available for micro and Small and
               Medium Size Enterprises (SMEs),” vaguely refers to the value of loans
               “made available”. However, this general description was not detailed enough
               to allow for consistent future data collection and reporting.

               While the Performance Monitoring Plan defined the indicator as "loans...
               made available", the R4 actually reported a mixture of loans "disbursed" and
               loans simply "approved" (see last section for discussion). The plan should
               have more precisely defined which loans were to be included in the
               computation of the indicator to ensure that data are comparable from year to
               year and the baseline does not change. A better definition for this indicator
               would be, “…loans disbursed and equity investments made….”

                       Data Source Identification

               ADS E203.5.5 (b) requires that operating units prepare performance
               monitoring plans. It also requires that such plans 1) specify the source,
               method of collection and schedule of collection for all required data and 2)
               assign responsibility for collection to a specific office, team or individual. In
               addressing performance monitoring plans, TIPS No. 7 notes the importance
               of being “as specific about the source [of data] as possible, so the same
               source can be used routinely.” It also notes that “[s]witching data sources for
               the same indicator over time can lead to inconsistencies and
               misinterpretations and should be avoided.”


               1
                The CDIE has issued performance monitoring and evaluation guidance in the form of
               pamphlets called “TIPS”.




Page 5 of 13                                                       Audit Report No. B-186-01-003-P
               We found that three indicators out of the five we reviewed did not meet that
               criterion. For example, the Performance Monitoring Plan for the Strategic
               Objective No. 3.2 indicator, “Number of children in institutions in 3 target
               judeta,”2 specified the data source as (1) implementing partner quarterly
               reports, (2) Monitoring Unit of the National Agency for Child Protection,
               and (3) County Departments for Child Protection. However, the R4 only
               identifies the National Agency for Child Protection as the source of
               information—not the three sources given in the Performance Monitoring
               Plan. In practice, all data reported by the three sources originated from the
               County Departments for Child Protection. Additionally, the Performance
               Monitoring Plan did not specifically identify the type of documents to be
               consulted, an omission which could lead to a lack of comparability in the
               data from year-to-year.

                          Data Collection Methodology

               ADS E203.5.5 (b) requires that Performance Monitoring Plans specify the
               data collection methodology for all required data. TIPS No. 7 highlights the
               importance of: 1) specifying the method or approach to data collection for
               each indicator and 2) providing sufficient detail on the data collection or
               calculation methodology to permit the replication of that data collection or
               calculation.

               We found problems with three out of five indicators. For example, the
               Performance Monitoring Plan for Strategic Objective No. 1.3 indicator
               “Value of loans (micro and small) and equity investment made available for
               micro and Small and Medium Size Enterprises (SMEs),” did not provide
               sufficient detail on the data collection method so that it could be consistently
               applied in subsequent years. Additionally, there was no supporting
               documentation in the Performance Monitoring Plan files to support the
               calculation of the amount reported in the R4. This lack of detail and
               supporting documentation could lead to different methodologies being
               employed from year-to-year, which could invalidate comparison of annual
               performance data.

                          Conclusion

               The principal cause for performance monitoring plans being incomplete in
               the above three areas was the Europe and Eurasia Bureau’s historical focus
               on inputs rather than results, and USAID/Romania’s inexperienced staff. As
               a result the Mission did not establish clear policies and procedures for
               implementing USAID’s requirements for performance monitoring plans.


               2
                   Judet is an administrative subdivision similar to a county in the United States




Page 6 of 13                                                              Audit Report No. B-186-01-003-P
               We believe more detailed and complete performance monitoring plans
               would improve the planning, management, and documentation of data
               collection and make those performance monitoring plans more useful
               management tools for USAID/Romania officials. Such performance
               monitoring plans would contribute to the effectiveness of the performance
               monitoring system by ensuring that comparable data will be collected on a
               regular and timely basis. Furthermore, it would provide the Mission with
               adequate assurance that it was maintaining the controls essential to a
               credible and useful performance-based management system.

               In contrast, without such plans, results reporting may be disrupted or
               compromised by staff turnover, data may not be comparable from one
               period to the next, and the Mission may not have a detailed roadmap to
               manage its performance monitoring process. Performance monitoring
               plans bring together the details of the performance monitoring process that
               would otherwise only be found in countless contractor, grantee, host
               government and Mission documents.


                       Recommendation No 1: We recommend that USAID/Romania
                       update its current performance monitoring plans to precisely
                       define indicators, identify all data sources, and describe data
                       collection methods.

                       Recommendation No 2: We recommend that USAID/Romania
                       establish procedures that require performance monitoring plans
                       to be prepared and maintained in accordance with USAID
                       guidance.

                       Recommendation No 3: We recommend that USAID/Romania
                       provide its program staff with training on measuring
                       performance and managing for results.


               Need to Assess Data Quality

               For four out of the five indicators examined, we determined that data
               quality assessments were not done in accordance with USAID guidance
               that requires data assessments when indicators are initially established and
               at least every three years thereafter3. This occurred primarily because
               USAID/Romania has not implemented a formal data assessment system

               3
                 Mission officials pressed the point that two of the five indicators examined were new
               and less than three-years-old. Accordingly, one would not expect to see a three-year data
               assessment for these indicators. However, data assessments are also required when
               indicators are initially established. Such assessments were not done for these two
               indicators.



Page 7 of 13                                                          Audit Report No. B-186-01-003-P
               and the Mission’s program staff are generally inexperienced and unaware
               of USAID’s requirements for data quality assessments. Without required
               data quality assessments, USAID/Romania did not have an adequate level
               of assurance that data quality met validity, timeliness, and reliability
               standards for results-oriented management, the lack of which could
               adversely effect management decisions.

               ADS E203.5.5e requires that data quality be initially assessed as part of
               the process of establishing performance indicators and choosing data
               collection sources and methods, and periodically assessed at least every
               three years thereafter. USAID’s CDIE issued TIPS Number 12 (Guidelines
               for Indicator and Data Quality) to assist USAID’s operating units in
               assessing the quality of their performance indicators and data. It states that it
               is important to periodically take a critical look at performance measurement
               systems and data sources to make sure that 1) indicators are still measuring
               what we think they are measuring and 2) data are being collected in the
               intended manner.        Data quality assessments should be systematic,
               documented, and cover all performance indicators. The purpose of such
               assessments is to identify data limitations—which are defined as errors
               that could lead to an inaccurate assessment of program progress. This
               information assists users in determining how much reliance can be placed
               on reported data in making management decisions.

               In general, we concluded that data quality assessments were not being
               done. For four out of the five indicators examined, we determined that
               data quality assessments were not done—or, if done, were not
               documented. For example, the indicator for Intermediate Result No. 1.3.2,
               “Value of loans (micro and small) and equity investment made available
               for micro and Small and Medium Size Enterprises (SMEs),” was
               established in 1997, but no data quality assessments were done at that
               time or later. One of the reasons the Strategic Objective Team did not
               assess data quality was because they believed the quality of data to be
               satisfactory and they relied on the fact that the grantees were audited. Thus
               the Strategic Objective Team believed that because an audit was done data
               quality would be acceptable.

               However, we found that while some audits were done, the Strategic
               Objective Team did not review the reports. Had they done so, they would
               have known that one of the reports was for a review and not an audit.
               Furthermore, that review stated that the grantee’s internal accounting
               system did not provide enough detailed accounting information in
               accordance with U.S. generally accepted accounting principles to allow
               the accounting firm to review and comment on the prior year’s financial
               statements—a potential data limitation. We also determined that data
               reported in the FY 2002 R4 for this indicator was not correct—a situation




Page 8 of 13                                                    Audit Report No. B-186-01-003-P
               that likely would have been discovered had an assessment been done as
               required. (see last section for discussion)

               Furthermore, we found no evidence that data quality assessments were
               done for the indicators associated with the following Intermediate Results:

               •   IR 1.4.1—Percentage of banking assets in state hands

               •   IR 2.1.2—Corruption Perception Index4, and

               •   IR 3.2.1—No. of children served by community-based child welfare
                   services in three target judeta (Counties).

               Mission officials stated that USAID/Romania has not implemented a
               formal data assessment system—instead the Mission said they employed
               supplementary measures, which produced the same results, but no record
               of these measures could be found. We also found that the Mission’s
               program staff was generally unaware of USAID’s requirement that data
               quality be assessed—and, therefore, they simply did not do any
               assessments. Even if supplementary measures were taken, unless they are
               documented, the information that would be contained therein is not
               available to Mission staff and cannot provide a guide to the current
               assessment. It is similarly unavailable as a guide to how data management
               could be improved.

               Results-oriented management decisions require valid, current, and reliable
               information, and the benefits of this approach depend substantially on the
               quality of the performance information. Data quality assessments provide
               management with reasonable assurance that data quality is sufficient for
               sound management decisions.          Without data quality assessments,
               USAID/Romania did not have reasonable assurance that data used to make
               management decisions was valid, timely, and reliable.




               4
                 Mission officials stated that a data quality assessment of the Corruption Perception
               Index was not done because they were relying on an internationally recognized index that
               is used by virtually all countries in the world. They also indicated that doing such an
               assessment would be outside the Mission’s control. In light of these assertions, we think
               it is important to note that the Mission did not disclose the lack of a data quality
               assessment in its comments to the applicable performance data table. While the Mission
               might have had what it deemed to be reasonable cause for not verifying the reported data,
               this fact—in our opinion—should have been disclosed to users of the table so those users
               could determine how much reliance to place upon the information therein.




Page 9 of 13                                                          Audit Report No. B-186-01-003-P
                       Recommendation No. 4: We recommend that USAID/Romania
                       establish procedures that require periodic data quality
                       assessments are completed for the indicators in its Results
                       Review and Resource Requests.


                       Recommendation No. 5: We recommend that USAID/Romania
                       document and maintain, in the Mission’s performance
                       monitoring files, the results of data quality assessments
                       conducted for its Results Review and Resource Request
                       indicators.


                Data Reported in R4 Did Not
                Always Meet Reporting Standards

                Federal laws and regulations require federal agencies to develop and
                implement internal management control systems that: (1) compare actual
                program results against those anticipated; (2) provide for complete, reliable,
                and consistent information; and (3) ensure that performance information is
                clearly documented and that the documentation is readily available for
                examination. TIPS Number 12 notes that data reliability requires a
                consistent data collection process. Otherwise, errors can occur which
                compromise the accuracy of reported results.

                In December 1999, USAID’s Bureau for Policy and Program Coordination
                issued guidance to operating units for preparing their fiscal year 2002 R4
                reports. That guidance directed operating units to use the “comments”
                section of their reports for reporting on data quality issues. Specifically,
                the “comments” section of the R4 report was to be used to:

                •   Elaborate on the interpretation of the reported data and the degree to
                    which achievement of a target is attributable to USAID. Missions
                    were also requested to provide the context surrounding the
                    interpretation of this data.

                •   Identify whether and how the operating unit assessed the reliability of
                    performance data provided by others (e.g., contractors, host
                    government), its plans to verify and validate performance data, and
                    significant data limitations and their implications for measuring
                    performance results against anticipated performance targets.

                Based on the above criteria, four of the five reported results were inaccurate,
                unsupported, or failed to properly disclose data limitations. Descriptions of
                these cases are as follows.




Page 10 of 13                                                   Audit Report No. B-186-01-003-P
                •   The performance indicator for Strategic Objective No. 1.3 is, “Value
                    of loans (micro and small) and equity investment made available for
                    micro and Small and Medium Size Enterprises (SMEs).” We found
                    that the results reported for this indicator were inaccurate, and the
                    comments section contained misleading information and lacked
                    disclosure of data limitations.

                    In the above indicator, the phrase “made available” is too imprecise to
                    allow the user of these results to truly know what is being presented.
                    As a consequence of this vague description, the Mission had
                    inadvertently reported a mixture of loans disbursed and loans
                    approved, but not yet disbursed, plus equity investment. In fact the
                    staff member who compiled this data believed that the amounts
                    reported in the R4 represented loans disbursed plus equity investments.
                    In addition, we found that the Mission had obtained the data verbally
                    from sources other than the reports specified in the Performance
                    Management Plan. Finally, the methodology used to collect data was
                    not documented—thus making the periodic collection of comparable
                    data difficult.

                    We also found the information in the comments section of the R4
                    report for this indicator to be misleading. The asterisk in the comments
                    section stated that; “Planned levels for the out years were adjusted
                    based on the levels recorded for the past years,” thus leading a reader
                    to conclude that the indicator was more successful than it actually had
                    been. The main reason for adjusting the planned levels upwards by $3
                    million, was a one time infusion of an additional $2 million of USAID
                    funds for loan assistance to countries along the border of Yugoslavia
                    which were affected by the Kosovo conflict—not achievement of the
                    indicator’s target as implied. Thus the comment, in effect, attributes
                    more success for this indicator than was actually the case. Finally,
                    data limitations resulting from an accounting firm’s inability to opine
                    on the financial statements of one of the Mission’s implementing
                    partner’s were not disclosed (see discussion in previous section).

                •   The performance indicator for Strategic Objective No. 1.4 is,
                    “Percentage of banking assets in state hands.” Documentation showed
                    that the result reported was based on calendar year data instead of
                    available fiscal year data as required by ADS 203.5.9a. The Mission
                    stated that the Europe and Eurasia Bureau requested missions to report
                    on the most recent data available. This data limitation, should have been
                    disclosed in the R4 comments section.

                •   One performance indicator for Strategic Objective No. 3.2.1 is,
                    “Number of children in institutions in three target judeta.” The
                    Mission also reported results for this indicator as of December 31, 1999


Page 11 of 13                                                  Audit Report No. B-186-01-003-P
                    instead of available fiscal year data as required by ADS 203.5.9a.
                    However, in this case, the mission appropriately noted in its comments to
                    the applicable data table that the information was being reported as of
                    December 31, 1999. Nevertheless, as with the previous indicator, future
                    results should be reported as of the end of the fiscal year, as required.

                    Moreover, the actual and planned data for this indicator presented in the
                    FY 2002 R4 table was not consistent with the data reported in the FY
                    2001 R4 report. The FY 2001 R4 report showed the actual number of
                    children in institutions in 1998 to be 3,704, but the FY 2002 R4 report
                    shows 3,204 children institutionalized in 1998. These reports also
                    showed the planned number of children in institutions for 2002 to be
                    2,392 versus 2,092 children, respectively. The Mission could not
                    document or explain why these differences occurred.

                •   Another performance indicator for Strategic Objective No. 3.2.1 is,
                    “Number of children served by community-based child welfare
                    services in three target judeta.” Again, acting on their belief that the
                    Europe and Eurasia Bureau, wanted Missions to report their most recent
                    results, the Mission reported results based on calendar year data instead
                    of available fiscal year data as required by ADS 203.5.9a.

                    This indicator also reported inconsistent information in the FY 2002 R4
                    report table. The actual and planned data presented in the FY 2002 R4
                    table was not consistent with the data reported in the prior FY 2001 R4
                    report. The FY 2001 R4 report showed the actual number of children in
                    institutions in 1998 to be 2,155, but the FY 2002 R4 report shows 1,555.
                    The FY 2001 R4 report also showed the planned number of children in
                    institutions for years 2000 and 2001 to be 3,308 and 4,574 respectively,
                    while the FY 2002 R4 report showed 3,500 and 3,938 for these years.
                    The Mission could not document or explain why these differences
                    occurred.

                The inaccuracy of the reported results can be generally attributable to a
                lack of clear procedures and methodology to assess the quality of data
                sources and inexperienced staff. Mission management and staff have not
                generally assessed data sources and methodologies as discussed in the
                preceding section. Mission management stated that they have spent a
                considerable amount of time assessing the quality of their indicators, but
                not a commensurate amount of time assessing the quality of data
                underlying those same indicators. In addition to these management issues,
                errors also resulted from simple miscalculations.

                TIPS Number 12 notes that sound decisions by USAID management require
                accurate, current, and reliable information. Without this type of information,
                decision makers may have less assurance as to whether an operating unit



Page 12 of 13                                                   Audit Report No. B-186-01-003-P
                      exceeded or fell short in achieving its program objectives and related targets.
                      In our opinion, the problems cited in this report with respect to the accuracy,
                      support, and completeness of results reporting affect USAID/Romania’s and
                      USAID management’s ability to (1) measure progress in achieving program
                      objectives and (2) use performance information in budget allocation
                      decisions. In regard to ensuring that performance data in its R4 are accurate,
                      supported, and complete, the Mission should review all indicator results for
                      accuracy, support, and completeness prior to issuance of the R4 prepared in
                      2001.

                             Recommendation No. 6: We recommend that USAID/Romania
                             require each SO team document and maintain support for
                             performance results reported in the Results Review and Resource
                             Request report to be issued in March 2001. If any data
                             limitations exist, such limitations should be disclosed in the
                             comments section of the report.




     Management       USAID/Romania officials agreed with the contents of the report and their
     Comments and     comments are included as Appendix II to this report. In its response,
     Our Evaluation   USAID/Romania commented that they considered the statements contained
                      in the report to be accurate reflections of the Mission’s performance and the
                      recommendations will help the Mission improve its performance monitoring
                      system.




Page 13 of 13                                                         Audit Report No. B-186-01-003-P
                                                                               Appendix I
                                                                                Page 1 of 2

Scope and     Scope
Methodology
              The Office of the Regional Inspector General/Budapest conducted an audit,
              in accordance with generally accepted government auditing standards, to
              determine if USAID/Romania was monitoring performance in accordance
              with USAID guidance as demonstrated by indicators appearing in its fiscal
              year 2002 R4 report. The audit covered indicators in four of eight strategic
              program areas of the Mission. In fiscal years 1999 and 2000 (as of
              September 22, 2000), USAID/Romania obligated $40.2 million in support of
              these four program areas. The audit was conducted at USAID/Romania in
              Bucharest, Romania from September 13 through September 28, 2000.

              Methodology

              Specifically, the audit objective was to determine if USAID/Romania
              monitored performance in accordance with Automated Directives System
              E203.5.5 and other relevant guidance as demonstrated by indicators
              appearing in its Results Review and Resource Request report for fiscal year
              2002. In answering the audit objective, we tested whether the Mission:

              •   established indicator baseline data either in the strategic plan or a
                  subsequent R4 report;
              •   prepared a performance monitoring plan that contained a detailed
                  definition of indicators that set forth precisely all technical elements of
                  the indicator statements;
              •   prepared a performance monitoring plan that identified all data
                  sources;
              •   prepared a performance monitoring plan that described the data
                  collection method in sufficient detail to enable consistent use in
                  subsequent years;
              •   prepared a performance monitoring plan that specified frequency and
                  schedule of data collection;
              •   prepared a performance monitoring plan that assigned responsibility
                  for collecting data;
              •   completed an assessment of data quality for the indicators either at the
                  establishment of the indicator or at an interval no greater than three
                  years;
              •   reported data that was adequately supported by source documents;
              •   reported baseline data in the R4 that were comparable to the data
                  reported for the indicator in fiscal year 2000; and
              •   disclosed known data limitations (if any) in the comments section of
                  the R4 report.




                                                              Audit Report No. B-186-01-003-P
                                                                  Appendix I
                                                                   Page 2 of 2

In order to test these aspects of the Mission’s performance monitoring
system, we interviewed officials as well as reviewed and tested
documentation at USAID/Romania. Such documentation included Mission
staffing and organization; annual Mission R4 reports; supporting
documentation for R4 reported results; Mission strategic plan for fiscal years
1998 to 2000; Mission internal control assessment for fiscal year 1999;
Mission performance monitoring plan; Bureau reviews of Mission results;
USAID and Bureau R4 guidance including USAID Center for Development
Information and Evaluation TIPS Numbers 7, and 12; Mission historical
funding data; and Romania country data. We also reviewed applicable prior
Department of State Office of Inspector General reports

The underlying premise for this audit was that performance monitoring
provides reasonable assurance that data reported meet USAID’s quality
standards.

An error threshold of plus or minus five percent was used to assess
whether the reported results agreed with source documentation. In
forming an opinion on whether the Mission monitored performance in
accordance with USAID guidance, we reviewed applicable internal
controls to obtain a sufficient understanding of the design of relevant internal
control policies and procedures. The relevant internal controls were limited
to the Mission’s systems for R4 results reporting. Our review did not assess
several aspects of the Mission’s performance monitoring for indicators
including (1) the development and supporting documentation of out-year
targets and (2) results reported in the narrative portion of the R4.




                                                 Audit Report No. B-186-01-003-P
                                                                                              Appendix II
                                                                                               Page 1 of 1

   Management Comments




    UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT
                                          Mission to Romania
   Blvd. Natiunilar Unite No. 1                                            Tel: (401) 535-5805
   Block 108A, “Gemenii Sitraco”                                           Fax:(401) 337-2683
   Floors 5-9, Sedor 5
   Bucharest, Romania

                                                                        January 24, 2001
Nathan S. Lokos
Director of Audit Operations
Office of the Regional Inspector General U.S. Agency for
International Development Budapest, Hungary

                                   Draft audit report on USAID/ Romania's
        Subject:
                                   performance monitoring for indicators as
                                   reported in the FY 2002 R4

Dear Mr. Lokos:
We have reviewed the 12/28/00 draft audit report on USAID/ Romania's Performance Monitoring
for Indicators. Overall, we consider the statements and the recommendations contained in the
report accurate reflections of the mission's performance that will help us improve our internal
performance monitoring system. . . . .

               Deleted-Relates to Matter Not Included in Final Report
                                                                         . . . . As the
person ultimately accountable for USAID/ Romania’s management, I accept responsibility for
correcting any shortcomings in our performance monitoring system.

We look forward to receiving the final audit report and will forward the management representation
letter at that time.




                                                                              Audit Report No. B-186-01-003-P
                                                                                                                                                                            Appendix III
                                  SUMMARY OF USAID/ROMANIA'S PERFORMANCE MONITORING CONTROLS
                                                                      In the Performance Monitoring Plan…                                                In the R4…
                                         1.             2.          3.            4.          5.          6.               7.             8.        9.                10.
                                                                                      Data       Data                                       Data     Baseline            Data
                    Abbreviated                         Indicator      Data        Collection  Collection                  Data Quality    Agrees   Comparable        Limitations
  Indicator          Indicator             Baseline     Precisely    Sources         Method    Schedule   Responsibility   Assessment        with     to 1999          Disclosed
   Number              Name              Established?   Defined?    Identified?   Described? Specified?      Assigned?        Done?       Source?     Result?          (if any)?

SO 1.3           Increase access to
Private          finance-small and
Enterprises      medium                       Yes            No          No         No           Yes           Yes              No         No            Yes                No
IR 1.3.2         enterprises (SMEs)
                 micro enterprises

SO 1 4           Percentage of
Private          banking assets in
Financial        state hands                  Yes            Yes         Yes        Yes          Yes           Yes              No         Yes           Yes                No
Sector
IR 1.4.1


SO 2.1           Corruption
Citizen          Perception Index
Participation
in Political &
Economic                                      Yes            Yes         Yes        Yes          Yes           Yes              No         Yes           Yes                N/A
Decision
Making
IR 2.1.2

SO 3.2.1         Number of
Improve          children in
Welfare of       institutions in three        Yes            No          No         No           Yes           Yes              Yes        Yes           Yes                N/A
Children and     target judeta
Women
IR 3.2.1

SO 3.2.1         Number of
Improve          children served by
Welfare of       community-based              Yes            No          No         No           Yes           Yes              No         Yes           Yes                No
Children and     child welfare
Women            services in three
IR 3.2.1         target judeta
  Total No
(5 out of 21 )                                 0              3           3          3            0              0               4          1              0                 3



                                                                                                                                            Audit Report No. B-186-01-003-P
